                                                           --    -
                                                                                                                                              I
                                                                                                                                              I
                                                                                                                    ' I
                                                  NATIONAL SCIENCE FOUNDATION                                                                 1
                                                   OFFICE OF INSPECTOR GENERAL                                                                i
                                                                                                                                          ij
   .                                                 OFFICE OF INVESTIGATIONS                                   I
                                                                                                                                              I


    o                                         CLOSEOUT MEMORANDUM
                                                                                                                                          I
                                                                                                                                              I
 Case Number: I05080034                                                                                                               )I
                                                                                             Page 1 of 1                              I/
                                                                                                           I1

                                                                                                                                      /I
                                                                                                                                          ,

          The National Science Foundation, Office of Inspector General, conducted a review of fiscal year                             ;I,
          2000 through fiscal year 2003 closed awards that involved substantial participant supPo&h d s
          in US - foreign collaborative awards. As part of the review, we requested the grantee1provide
                                                                                                                                      4
                                                                                                                                          1
          financial information and supporting documentation on NSF award.2
                                                                                                                                      1
          In the course of reviewing the grantee-supplied materials, we noted that there were four charges                            I
          to the award that needed further explanation. As a response to our subsequent inquiry, the                              '!  I
                                                                                                          I1
          grantee provided documentation that clarified these charges by demonstrating the charges were                               I
          properly made and documented.                                                                                           It




          The NSF Program officer3 advised that this award was funded by the US State Departl?ent and                             1
          that the primary focus was collaboration between foreign researchers and US. Foreign travel was
          a necessary part of this award and the P I - W ~ Sallowed to use the participant support funds for                      I
          foreign travel. The award appeared to have achieved this objective.
                                                                                                                              l
          The questioned items appear to be used in accordance with the terms of the award and there are                          i
                                                                                                                              'I
          no other issues with the award.                                                                                         I
                                                                                                                                  I

                                                                                                                            tiI
          Accordingly, this case is closed.
                                                                                                                              i
                                                                                                                              I


                                                                                                                          /
                                                                                                      I                   II


                                                                                                                         'i
                                                                                                                              I
                                                                                                                            1
                                                                                                                         ;I
                                                                                                                          I
                                                                                                                        ,I
                                                                                                                          I
                                                                                                                          I
                                                                                                                        11

                                                                                                                     I!
                                                                                                                        I




                                                                                                                    I/
          ' Redacted
           Redacted
           Redacted                                                                                                 '~
                                                                                                                     I
                                                                                                                    11
                                                                                                                    I1
                                                                                                                    I
                                                                                                 /I
NSF OIG Form 2 (1 1/02)                                                                                             11
